BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Maine
Community Health Options v. United States, and
Community Health Choice, Inc., v. United States, was
sent via Next Day Service to the U.S. Supreme Court,
and via e-mail service to the following parties listed
below, this 19th day of February, 2021:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
Paul D. Clement
Counsel of Record
Erin E. Murphy
C. Harker Rhodes IV
Elizabeth Hedges
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

(800) 890.5001

8790 Governor's Hill Drive
Suite l 02

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington, DC 20005

Stephen J. McBrady
Crowell & Moring LLP
1001 Pennsylvania Ave., NW
Washington, DC 20004
(202) 624-2547
smcbrady@crowell.com
Counsel for Maine Community Health Options
William L. Roberts
Faegre Drinker Biddle & Reath
2200 Wells Fargo Ctr.
90 South 7th St.
Minneapolis, MN 55402
(612) 766-7000
william.roberts@faegredrinker.com
Counsel for Community Health Choice, Inc.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~~- /91 J oe) /

d71( fl , lc)~

Notary Public
[seal]

1

